                        U.S. Environmental Protection Agency 	                                                  12-P-0220
                                                                                                          January 20, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Region 10 Technical and Computer Room
The U.S. Environmental
                                    Security Vulnerabilities Increase Risk to
Protection Agency (EPA)             EPA’s Network
Office of Inspector General
(OIG) conducted this audit to        What We Found
identify technical
vulnerabilities associated with     OIG technical vulnerability scans conducted at Region 10 headquarters revealed
the Agency’s network devices        a multitude of high-risk and medium-risk vulnerabilities. These vulnerabilities
located in EPA’s Region 10          were identified on Region 10 servers, printers, and/or desktops. The exploitation
headquarters building, and to       of unidentified and unremediated vulnerabilities could greatly impact the network
assess the security posture of      security posture of Region 10 headquarters and/or the entire EPA network by
the Region 10 computer room.        exposing Agency data, information, and configurations to unauthorized access.
Results of this audit were
provided to the appropriate         The OIG physical and environmental control review of the Region 10 computer
EPA officials who can then          room found that sufficient protections were not in place to safeguard critical
promptly remediate and/or           information technology assets and associated data from the risk of damage and/or
document their planned actions      loss.
to resolve the identified
technical vulnerabilities and        What We Recommend
computer room security
findings.                           We recommend that the Senior Information Official, Region 10:

Background                              •   Remediate high-risk and medium-risk technical vulnerabilities
                                        •   Remediate physical and environmental control deficiencies
This audit was conducted in
support of the annual audit of
                                    The full report is not available to the public due to the sensitive nature of its
EPA’s compliance with the
                                    technical findings.
Federal Information Security
Management Act.




For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20120120-12-P-0220.pdf
